No. 21-152
IN THE

Supreme Court of the United States
————
THE ESTATE OF MADISON JODY JENSEN,
BY HER PERSONAL REPRESENTATIVE JARED JENSEN,
v.

Petitioner,

KENNON TUBBS, M.D.,
Respondent.
————
On Petition for a Writ of Certiorari to the
United States Court of Appeals
for the Tenth Circuit
————
BRIEF IN OPPOSITION
————
CORTNEY KOCHEVAR
Counsel of Record
KRISTINA H. RUEDAS
NELSON | NAEGLE
222 South Main Street
Suite 1740
Salt Lake City, UT 84101
(385) 292-4400
ckochevar@nelsonnaegle.com
kruedas@nelsonnaegle.com
Counsel for Respondent
September 3, 2021
WILSON-EPES PRINTING CO., INC. – (202) 789-0096 – WASHINGTON, D.C. 20002

QUESTION PRESENTED
Whether private medical personnel working in
correctional or mental-health facilities can assert
qualified immunity.1

1

While this is the question formally presented by Petitioner,
at times the Petition appears to request certiorari on the issue of
whether any medical personnel—even those employed directly by
the state—can assert qualified immunity.

(i)

ii
CORPORATE DISCLOSURE STATEMENT
There are no publicly held corporations involved in
this proceeding.

iii
TABLE OF CONTENTS
Page
QUESTION PRESENTED ..................................

i

CORPORATE DISCLOSURE STATEMENT .....

ii

TABLE OF AUTHORITIES ................................

v

RESPONDENT’S BRIEF IN OPPOSITION ......

1

STATEMENT OF THE CASE ............................

1

REASONS FOR DENYING THE PETITION ....

5

I. The Court should deny the Petition
because there is no circuit split ................

5

A. The Supreme Court has established a
consistent two-part analysis for the
question presented ..............................

5

B. The circuit courts of appeal have
consistently applied this two-part
analysis ................................................

10

1. Petitioner’s alleged “majority view”
circuits apply the same two-part
analysis as the alleged “minority
view” ...............................................

11

2. Petitioner’s alleged “minority view”
correctly applies the two-part analysis to various factual scenarios ....

14

3. The Eighth Circuit’s recent decision on this issue demonstrates
that there is no confusion among
the circuit courts ............................

19

II. The question presented does not merit
the Court’s attention .................................

21

iv
TABLE OF CONTENTS—Continued
Page
III. The Tenth Circuit correctly decided
Jensen v. Clyde based on its specific facts
and relevant policy considerations ...........

25

CONCLUSION ....................................................

27

v
TABLE OF AUTHORITIES
CASES

Page(s)

Bracken v. Okura,
869 F.3d 771 (9th Cir. 2017) .....................

24

Currie v. Chhabra,
728 F.3d 626 (7th Cir. 2013) .....................

10

Davis v. Buchanan County, Missouri,
— F.4th —, 2021 WL 3729050 ...... 10, 19-20, 22
Clark v. Walker,
865 F.3d 544 (7th Cir. 2017) ...... 4, 10, 13-15, 20
Filarsky v. Delia,
566 U.S. 377 (2012) ..................................passim
Gregg v. Ham,
678 F.3d 333 (4th Cir. 2012) ..................... 11, 24
Hinson v. Edmond,
192 F.3d 1342 (11th Cir. 1999),
amended, 205 F.3d 1264 (11th Cir.
2000) ................................................ 4, 13, 20, 22
Jensen v. Clyde,
989 F.3d 848 (10th Cir. 2021) ............ 2-4, 18, 25
Jensen v. Lane Cty.,
222 F.3d 570 (9th Cir. 2000) ...... 4, 12-13, 20, 22
Lockett v. Fallin,
137 S. Ct. 2298,
198 L. Ed. 2d 751 (2017) ........................... 25-26
McCullum v. Tepe,
693 F.3d 696 (6th Cir. 2012) ...... 4, 10-12, 20, 22
Perniciaro v. Lea,
901 F.3d 241 (5th Cir. 2018) ..................... 14-15

vi
TABLE OF AUTHORITIES—Continued
Page(s)
Rasho v. Elyea,
856 F.3d 469 (7th Cir. 2017) .....................

13

Richardson v. McKnight,
521 U.S. 399 (1997) ............................. 4-7, 23-24
Sanchez v. Oliver,
995 F.3d 461 (5th Cir. 2021) ................ 15-16, 20
Tanner v. McMurray,
989 F.3d 860 (10th Cir. 2021) .......... 5, 16-17, 20
Lockett v. Fallin,
841 F.3d 1098, 1108 (10th Cir. 2016) ....... 24-26
Wyatt v. Cole,
504 U.S. 158 (1992) ...................................

6

STATUTES
42 U.S.C. § 1983 ...........................................

6

OTHER AUTHORITIES
2010 United States Census Report ..............

2

Aaron Littman, et. al, Protecting Rural
Jails from Coronavirus, The Justice
Collaborative Institute (Apr. 2020) ..........

22

Jails: Inadvertent Health Care Providers,
The PEW Charitable Trusts (Jan. 2018) .

22

Steve Coll, The Jail Health-Care Crisis,
The New Yorker (Feb. 25, 2019) ..............

23

RESPONDENT’S BRIEF IN OPPOSITION
The Court should deny certiorari on the question of
whether private medical personnel working in correctional or mental-health facilities can assert qualified
immunity because the applicable rule of law is properly
stated and has been consistently applied among the
circuit courts of appeal. Respondent respectfully requests
that the Court deny Petitioner’s Petition for a Writ of
Certiorari for at least three reasons:
First, contrary to Petitioner’s contention, there is no
circuit split regarding the circumstances under which
private medical personnel working in correctional or
mental-health facilities can assert qualified immunity.
Second, the question does not merit the Court’s
attention because the standard for assessing a privateactor’s eligibility for qualified immunity does not need
to be clarified, and the fact-specific, two-part analysis
is an effective method for lower courts to decide these
issues.
Third, the Tenth Circuit’s decision was correct
because both the historical analysis as set forth in
Filarsky and the public policy considerations set
forth in Richardson and Filarsky strongly support
Dr. Tubbs’s qualified immunity defense. And, allegations of “erroneous factual findings or the misapplication
of a properly stated rule of law” rarely justify granting
certiorari.
STATEMENT OF THE CASE
While Petitioner’s summary of the factual and
procedural history of this case is largely accurate,
Respondent perceives some misstatements of fact and
law that must be corrected. The following factual assertions appear in the record as well as in the factual

2
findings identified by the Tenth Circuit Court of
Appeals in Estate of Jensen by Jensen v. Clyde, 989
F.3d 848 (10th Cir. 2021).
Dr. Tubbs contracted with the Duchesne County1
Jail to provide some medical services for the inmates
at the Jail. Id. at 852 (emphasis added). Specifically,
Dr. Tubbs agreed to provide medical services such as
telephone on-call service for consultation and a oncea-week sick call. See id. Dr. Tubbs subcontracted with
a physician’s assistant (“PA”), who made weekly visits
to the jail to provide medical care. See id. It is undisputed that the Jail and nursing staff (including Nurse
Jana Clyde) knew that they could call Dr. Tubbs or his
PA any time with medical questions or concerns. See
id.
The Duchesne County Jail directly employed Nurse
Jana Clyde, the only full-time medical provider at the
Jail. See id. While Dr. Tubbs agreed to “provide
training, instruction, support, and a supervisory role”
to Nurse Clyde “on how to appropriately handle triage,
sick call, medical protocols, and health care complaints/
grievances,” he did not have the authority to fire or
discipline Nurse Clyde. Id. at 856. Furthermore, Dr.
Tubbs did not contract to create medical protocols or
policies for the jail. See id.
The Petition points out that Nurse Clyde had “not
receive[d] any training . . . on the Jail’s medical
policies and procedures.” However, the Petition does
1

Duchesne County is a rural county in northeastern Utah. As
of the 2010 United States Census, there were 18,607 people in the
county. The median income for a household in the county was
$31,298, and 16.8% of the population lived below the poverty line.
See 2010 United States Census Report, https://www.census.gov/
quickfacts/fact/table/duchesnecountyutah/PST045219.

3
not mention that Nurse Clyde knew that she should
call Dr. Tubbs if an inmate was violently vomiting over
a 12-hour period or if she had seen an inmate’s vomit.
Id. Because Dr. Tubbs’ contract with the Jail is for
telephonic on-call services and a once-a-week in-person
sick call, Dr. Tubbs must rely on County employees to
contact him with any inmate’s medical concerns. Dr.
Tubbs was never contacted regarding Madison Jensen’s
condition. See id. at 854. Furthermore, in Dr. Tubbs’
19 years of experience, he had never had any inmate
die as a result of opiate withdrawal. See id.
The Tenth Circuit found that Dr. Tubbs’ employment with the Duchesne County Jail was strikingly
different from employment with a private prison. See
id. at 856. Dr. Tubbs essentially ran a two-man shop
(including his subcontract with his PA) providing a
discrete function to the Jail. See id. While Dr. Tubbs
had some leeway in his decisions, it was Duchesne
County that was charged with implementing policies
and training its employees, including Nurse Clyde and
enforcement officers. See id. Dr. Tubbs was required to
provide care in accordance with Utah Department of
Corrections and Utah Medicaid guidelines, the County
had to authorize any elective care, and Dr. Tubbs could
only prescribe medication from the prison’s formulary.
See id. Even though Dr. Tubbs had agreed to supervise
and provide some training to Nurse Clyde, she was a
County employee, whom Dr. Tubbs had no ability to
discipline or fire. See id. Given these facts, the Tenth
Circuit found that had Dr. Tubbs been working as a
doctor for the County on a full-time basis, he would
have certainly been able to raise a qualified immunity
defense, fulfilling the historical common law analysis
addressed in Filarsky v. Delia, 566 U.S. 377 (2012).
See id.

4
Petitioner also wrongly asserts that the Tenth
Circuit “acknowledged an entrenched circuit split
about whether ‘qualified immunity is . . . available to
a private medical professional providing services to a
jail.’” Pet. at 11 & Pet.App.14a-15a. The Tenth Circuit
did not acknowledge such a split, but instead found
that “the circumstances of this case—i.e., an individual
doctor with limited control over policy working alongside government employees — compel a different result
[than the circuit decisions denying qualified immunity
to private medical providers in other contexts.]” Jensen,
989 F.3d at 857 (emphasis added). In doing so, the
Tenth Circuit did not acknowledge a circuit split.2
Instead, the court concluded that Dr. Tubbs’ situation
is factually dissimilar to employees of large private
firms that are systematically organized to perform a
major administrative task for profit—like the employees who were not entitled to qualified immunity in
Richardson v. McKnight, 521 U.S. 399 (1997). Rather,
his situation is similar to the individual defendant who
was entitled to qualified immunity in Filarsky v. Delia,
566 U.S. 377 (2012).
Petitioner’s characterization that “[t]he Tenth
Circuit sided with the Fifth Circuit’s minority view”
and “reject[ed] the majority position” is not accurate.
In fact, on the same day that the Tenth Circuit allowed
Dr. Tubbs to assert qualified immunity, using the
same two-part analysis defined by Richardson and
2

To support Petitioner’s argument that a circuit split exists,
Petitioner relies upon Estate of Clark v. Walker, 865 F.3d 544 (7th
Cir. 2017); McCullum v. Tepe, 693 F.3d 696 (6th Cir. 2012);
Hinson v. Edmond, 192 F.3d 1342 (11th Cir. 1999); and Jensen v.
Lane County, 222 F.3d 570 (9th Cir. 2000). As demonstrated
below, these cases employ the same two-part analysis used by the
alleged “minority view.”

5
Filarsky, the Tenth Circuit held that the employees of
a large, private medical provider were not entitled to
qualified immunity based on the facts of that case. See
Tanner v. McMurray, 989 F.3d 860, 862 (10th Cir.
2021).
REASONS FOR DENYING THE PETITION
I. The Court should deny the Petition because
there is no circuit split.
Petitioner declares this case to be about “the interaction of [the Richardson and Filarsky] precedents,” and
requests certiorari based on the inaccurate premise
that Richardson and Filarsky present inconsistent
standards that the circuit courts of appeal have
“struggled to reconcile.” Pet. at 1. In reality, both
Richardson and Filarsky support a two-part analysis
for determining whether a private person can assert a
qualified immunity defense: (1) whether there is a
historical tradition of immunity applicable to that
class of persons; and (2) whether three key policies
underlying the immunity doctrine support the assertion of a qualified immunity defense. See Richardson,
521 U.S. at 404.
A. The Supreme Court has established a
consistent two-part analysis for the
question presented.
Contrary to Petitioner’s assertions, the standard
for evaluating whether private persons can assert a
qualified immunity defense is clear and consistent.
Building on this Court’s decision in Wyatt, Richardson
and Filarsky establish a clear, two-part analysis where
courts look to both history and the purposes of the
qualified immunity doctrine to determine whether a
private person can assert the defense of qualified
immunity.

6
Although the text of 42 U.S.C. § 1983 does not
contain any explicit exceptions for governmental
immunity, the Supreme Court has long accorded
certain government officials either absolute or qualified
immunity. Wyatt v. Cole, 504 U.S. 158, 163 (1992).
Qualified immunity for government officials was
recognized where it was necessary to preserve the
individual’s ability to serve the public good or to
ensure that talented candidates were not deterred
by the threat of damages suits from entering public
service. Id. at 167. Wyatt held that qualified immunity
was not available for private defendants “who consipire
with state officials to violate constitutional rights” by
invoking state replevin, garnishment, or attachment
statute.” Wyatt explicitly limited its holding to what it
called a “narrow” question and did not foreclose the
possibility that private defendants may be entitled to
qualified immunity in other situations. See Richardson,
521 U.S. at 404 (quoting Wyatt, 504 U.S. at 168-169).
Five years after Wyatt was decided, the Supreme
Court analyzed and applied the Wyatt standard to the
question of whether employees of a private prison
management firm were entitled to assert qualified
immunity. See id. To answer that question, Wyatt
instructed courts to look “both to history and to the
purposes that underlie government employee immunity.”
Id. (emphasis added). Importantly, Richardson noted
that the Wyatt majority, concurrence, and dissent all
agreed that both the history and public policy factors
should be analyzed. Id.
Richardson first found that history did not reveal a
“firmly rooted” tradition of immunity applicable to
privately employed prison guards. Id. Therefore, history did not provide significant support for allowing

7
the private defendants to assert a qualified immunity
defense. Id. at 407.
Significantly, Richardson did not find the historical
factor dispositive, and did not end its inquiry there.
The Court next turned to the question of whether the
immunity doctrine’s purposes warranted immunity for
private prison guards, finding that presented a closer
question than the historical analysis. Id. at 407-408.
The Supreme Court evaluated three distinct public
policies: (1) discouraging timidity in performing government duties; (2) ensuring that talented candidates are
not deterred by the threat of damages suits from
entering public service; and (3) limiting the number of
lawsuits that may distract employees from their duties.
See id. at 408-412. Richardson ultimately denied the
availability of the qualified immunity defense to the
employees of the private prison management firm. Id.
Richardson “answered the immunity question narrowly, in the context in which it arose.” Id. at 413. It
defined that narrow context as one in which a private
firm, systematically organized to assume a major lengthy
administrative task (managing an institution) with
limited direct supervision by the government, undertakes that task for profit and potentially in competition
with other firms.” Id. Richardson explicitly differentiated the case at hand from a case involving “a private
individual briefly associated with a government body,
serving as an adjunct to government in an essential
governmental activity, or acting under close official
supervision.” Id.
In 2012, the Court distinguished between public
employees and private individuals retained by the
government to perform essential governmental activity—
the very question explicitly left open by Richardson.
Filarsky, 566 U.S. at 384. In Filarsky, a small city in

8
California initiated an investigation into one of its
fire department’s employees. See id. at 381. The city
hired an experienced employment lawyer to assist the
fire department with this investigation. See id. The
employee alleged this investigation violated his
constitutional rights and sued the city along with four
individual defendants: three individuals from the fire
department, and the private employment attorney.
See id. at 382. The Ninth Circuit granted qualified
immunity to the three individuals who worked directly
for the city but denied qualified immunity to the private attorney because he was not a public employee.
See id. at 384.
In determining whether this private versus public
distinction was a valid basis to deny qualified immunity, the Filarsky court looked to the “general principles
of tort immunities and defenses” applicable at common
law when Section 1983 was enacted, and the reasons
the Court had afforded protection from suit under
Section 1983. Id.
As in Richardson, the Court’s inquiry began with
the common law as it existed when Congress passed
Section 1983 in 1871. See id. The Court recognized the
nature of government in 1871, when government was
smaller in both size and reach. See id. “Local governments faced tight budget constraints, and generally
had neither the need nor the ability to maintain an
established bureaucracy staffed by professionals.” Id.
Private citizens were actively involved in government
work. See id. at 385. The Filarsky court found
“examples of individuals receiving immunity for actions
taken while engaged in public service on a temporary
or occasional basis” that were “as varied as the reach
of government itself.” Id. at 388–89. The Court
concluded that “immunity under § 1983 should not

9
vary depending on whether an individual working for
the government does so as a full-time employee, or on
some other basis.” Id. at 389.
Following the Wyatt and Richardson framework of
analysis, Filarsky then turned to the question of
whether the immunity doctrine’s purposes supported
qualified immunity in the case at hand. The Court
found that affording qualified immunity to private
persons who act on behalf of the government in a
position substantially similar to a public employee
furthered the purposes of the immunity doctrine. Id.
at 389-90. It does so by helping to avoid the “unwarranted timidity” in performance of public duties, ensuring
that talented candidates are not deterred from public
service, and preventing the harmful distractions from
carrying out the work of government that can often
accompany damages suits. Id.
Filarsky affirmed Richardson’s own recognition of
its self-consciously “narrow” decision. Id. The Filarsky
court found that the private attorney who had been
hired to assist a small city with an employment investigation was distinguishable from the “private firm,
systematically organized to assume a major lengthy
administrative task with limited direct supervision by
the government, undertaking that task for profit and
potentially in competition with other firms” analyzed
in Richardson. See id. at 392.
Therefore, despite Petitioner’s assertions, Richardson
and Filarsky are not inconsistent with each other.
Instead, they arose from different factual scenarios
and come to opposite conclusions while applying the
same standard. Petitioner creates a false dichotomy
between the two decisions by arguing that policy
considerations can never justify an extension of immunity in the absence of specific and nearly factually

10
identical historical examples of immunity. Pet. at 27.
But as demonstrated above, neither Wyatt, Richardson,
nor Filarsky intended the historical factor to be dispositive, and each of those cases analyzed both history
and the policies underlying the immunity doctrine
regardless of the ultimate outcome. Therefore, the
two-part analysis set forth by this Court is clear.
B. The circuit courts of appeal have consistently applied this two-part analysis.
Contrary to Petitioner’s assertion, the courts of
appeals are not divided. Consistent with Richardson
and Filarsky, the Fifth, Sixth, Seventh, Eighth, Ninth,
Tenth, and Eleventh Circuit Courts of Appeal have
each engaged in a two-part analysis in deciding
whether a private medical provider could assert a
qualified immunity defense.3
By engaging in this two-part analysis, each of these
circuits correctly concluded that private medical personnel working for “large firms that are systematically
organized to perform a major administrative task
for profit are not entitled to assert the defense of
qualified immunity.” Davis v. Buchanan County,
Missouri, — F.4th —, 2021 WL 3729050 *9. However,
when presented with different factual scenarios involving private medical providers who are not employed by
large, for profit firms, but instead worked alongside
government employees in similar positions, the Fifth
3

In Estate of Clark v. Walker, 865 F.3d 544 (7th Cir. 2017), the
Seventh Circuit held that a privately employed nurse at the jail
was ineligible for qualified immunity. In doing so, the court ended
its analysis at the historical prong, but adopted the reasoning in
Currie v. Chhabra, 728 F.3d 626 (7th Cir. 2013), which relies on
the two-part analysis conducted in McCullum v. Tepe, 693 F 3d
696 (6th Cir. 2012).

11
and Tenth Circuits decided those private medical
personnel could assert a qualified immunity defense.
There is no circuit split on this question—only different results from the application of the same standard
to different factual scenarios.
1. Petitioner’s alleged “majority view”
circuits apply the same two-part analysis as the alleged “minority view.”
Petitioner asserts that there is a majority view of
four circuits, “[r]elying primarily on Richardson,” who
have held that private medical personnel can never
assert qualified immunity. However, a closer analysis
of the cases cited by Petitioner reveals that the Sixth,
Seventh, Ninth, and Eleventh Circuits followed the
two-part analysis, looking at both historical immunity
and public policy. These cases also all arose from
lawsuits against employees of large, private corporations, subject to market forces and incentivization. Not
only is the applicable two-part analysis accepted, but
also every circuit has uniformly denied qualified
immunity to the employees of private corporations
that manage prisons or healthcare in prisons for profit.
The decisions from the Sixth, Ninth, and Eleventh
Circuits each engage in the same two-part analysis set
forth in Richardson and later Filarsky.4 In McCullum
v. Tepe, decided just four months after Filarsky, the
Sixth Circuit analyzed each of the following questions:
4

The Fourth Circuit has also applied the two-part analysis test
set forth in Richardson (albeit in a law enforcement context)
finding that the Filarsky decision “did nothing to disturb the test
outlined in Richardson but instead, by looking to history and the
purposes of § 1983, endorsed the [two-part] analysis” of historical
and public policy factors. See Gregg v. Ham, 678 F.3d 333, 340 n.
4 (4th Cir. 2012).

12
whether there was a firmly rooted history of immunity
for similarly situated parties at common law, and
whether granting immunity would be consistent with
the history and purpose of Section 1983. See 693 F.3d
696, 700 (6th Cir. 2012). The Sixth Circuit decided that
there was no common-law tradition of immunity “for a
private doctor working for a public institution at the
time that Congress passed § 1983.” Id. at 703. The
Sixth Circuit did not find this element dispositive,
instead recognizing that “[t]he first piece of the
Richardson analysis” suggests it should not allow the
defendant to assert qualified immunity. Id. The Sixth
Circuit then moved to “[t]he policy element” of its
analysis, finding—unsurprisingly—that the three goals
of Section 1983 would not be furthered by allowing an
employee of a large, for-profit private entity to assert
qualified immunity. Id.
The Ninth and Eleventh Circuits’ cases cited by
Petitioner were decided before Filarsky, and therefore
have questionable utility. Even so, both the Ninth and
Eleventh Circuit engaged in the two-part analysis,
looking at both history and policy before denying qualified immunity to the private defendant. In Jensen v.
Lane Cty., the Ninth Circuit was presented with “[l]imited
information . . . on the historical availability of
immunity for doctors asked by the government to
make a decision to commit persons suspected of
mental illness.” 222 F.3d 570, 576 (9th Cir. 2000).
Therefore, the Ninth Circuit concluded that there was
insufficient historical evidence to support a finding of
qualified immunity. See id. at 577. Again, the Ninth
Circuit did not stop its inquiry there, and moved to the
“next step” of examining the policy justifications for
qualified immunity. See id. The Ninth Circuit concluded that the governmental concerns about timidity,
distraction, and deterrence were not present when the

13
defendant was the employee of a large, private
organization subject to market forces and incentives.
See id. at 577-78.
The Eleventh Circuit followed the same two-part
analysis framework in Hinson v. Edmond. The Eleventh
Circuit found a lack of historical support for immunity
for the defendant, a privately employed prison physician.
See 192 F.3d 1342, 1346 (11th Cir. 1999), amended,
205 F.3d 1264 (11th Cir. 2000). It also found that “[i]n
addition to the lack of historical support for immunity,
the public policy reasons for qualified immunity do not
justify the extension of qualified immunity in this
case.” Id. The court’s analysis of the policies underlying the immunity doctrine—taking up more time
and space than the historical analysis—yielded a
similar conclusion that qualified immunity was not
warranted. See id. at 1346-47.
In 2017, the Seventh Circuit was presented with the
question of whether a private healthcare contractor
was entitled to assert qualified immunity, and is the
only case cited by Petitioner that did not overtly
engage in the two-part analysis. Est. of Clark v.
Walker, 865 F.3d 544, 550 (7th Cir. 2017). However,
the Seventh Circuit recognized that it had recently
addressed that issue, holding that private medical
personnel in prisons are not entitled to the protection
of qualified immunity. See id. (citing Rasho v. Elyea,
856 F.3d 469, 479 (7th Cir. 2017) (“This Court has
construed the Supreme Court's holding that employees
of privately-operated prisons may not assert a
qualified-immunity defense also to deny that defense
to employees of private corporations that contract with
the state to provide medical care for prisoners.”). The
Seventh Circuit rejected the defendant’s argument
that Filarsky had overruled Richardson, instead find-

14
ing that Filarsky reaffirmed the categorical rejection
of immunity for employees of private companies that
contract to run correctional facilities for profit. See id.
The Seventh Circuit found the Sixth Circuit’s reasoning in McCullum v. Tepe—which analyzed both the
historical and public policy prongs—to be persuasive,
and denied qualified immunity to the privately
employed nurse at issue. Id. at 550-51.
While the Seventh Circuit did not explicitly analyze
both the historical and public policy prongs of the
requisite analysis, it did rely heavily on prior precedents that had analyzed both prongs and reached the
same conclusion in similar factual scenarios: that
private persons are not entitled to assert qualified
immunity when they are employees of private firms,
systematically organized to assume a major lengthy
administrative task with limited direct supervision by
the government, undertaking that task for profit and
potentially in competition with other firms.
2. Petitioner’s alleged “minority view”
correctly applies the two-part analysis to various factual scenarios.
In 2018, the Fifth Circuit was presented with the
question of whether two psychiatrists from a nearby
university, who contracted to provide psychiatric
treatment to a mental-health facility, were eligible to
assert the qualified immunity defense when they were
not state employees. Perniciaro v. Lea, 901 F.3d 241,
251 (5th Cir. 2018). The Fifth Circuit found that after
considering the facts of the case “in light of the history
and purposes of immunity,” the cases disallowing
immunity to medical providers who were employed by
private companies were distinguishable. See id. When
it analyzed the historical prong post-Filarsky, the
Fifth Circuit found significant that at common law,

15
courts “did not draw a distinction between public
servants and private individuals engaged in public
service in according protection to those carrying out
government responsibilities.” Id. (citing Filarsky, 566
U.S. at 387) Because it was clear that the private
defendants’ public counterparts would be entitled to
assert qualified immunity, the Fifth Circuit found that
general principles of immunity at common law supported
their right to raise the qualified immunity defense. Id.
The Fifth Circuit then went on to analyze the purposes
of qualified immunity in detail, to determine if they
also supported an extension of qualified immunity to
the private defendants. See id. at 252-55.
By issuing its decision in Perniciaro, the Fifth
Circuit did not categorically grant qualified immunity
to all private medical professionals in correctional
facilities, as Petitioner argues. Instead, as demonstrated by Sanchez v. Oliver, 995 F.3d 461 (5th Cir.
2021), the Fifth Circuit has successfully employed the
two-part analysis set forth in Richardson and later in
Filarsky to address the application of qualified immunity in a thoughtful and fact-specific manner.
In Sanchez, the circuit court reversed the district
court’s decision granting qualified immunity to a privately employed social worker,5 who provided mental
health services in correctional facilities. Id. at 466–
5

The social worker was employed by CHC—“a major corporation in the business of administering correctional health care
services. CHC derives well over a billion dollars annually from its
contracts in jails and prisons.” Sanchez, 995 F.3d at 467. Given
these facts, the court determined that CHC was “systematically
organized to perform the major administration task of providing
health care at state facilities." Id. CHC was also the employer at
issue in Estate of Clark v. Walker, 865 F.3d 544, 550–51 (7th Cir.
2017).

16
472. Because the court could find no tradition of
immunity at common law6 and the purposes of qualified immunity, on balance, weighed against extending
immunity, the court held that “as an employee of a
large firm systematically organized to perform a major
administrative task for profit, [the social worker] is
categorically ineligible to assert the defense of qualified immunity.” Id. at 472 (internal citation omitted).
This outcome, which Petitioner may characterize as
at odds with Perniciaro, does not demonstrate that
Richardson and Filarsky have caused confusion
among the circuit courts. Instead, this outcome shows
that the circuit courts are consistently and appropriately applying the two-part fact-specific analysis.
Similarly, the Tenth Circuit recently demonstrated
the effectiveness of the two-part analysis when it
decided two cases involving this question of whether
the assertion of qualified immunity was warranted, on
the same day, to opposite results. On the same day the
Tenth Circuit decided that Dr. Tubbs is entitled to
assert qualified immunity, the Tenth Circuit (including
one of the same panel judges) reached the opposite
conclusion in another case involving a private party
asserting qualified immunity. See Tanner v. McMurray,
989 F.3d 860, 862 (10th Cir. 2021). An analysis of
these two cases, Tanner v. McMurray and Jensen v.
Clark, shows not only that there is not a circuit split
6

In response to criticism, like that lodged by the Petitioner,
that the Fifth Circuit had failed to undertake a historical analysis
in Perniciaro, the court clarified that the first prong is not a
question of “whether a modern public counterpart would be
entitled to immunity, but, rather, whether general principles of
tort immunities and defenses under ‘the common law as it existed
when Congress passed § 1983 in 1871’ support the availability of
qualified immunity to a private party.” Id. at 467.

17
that would warrant granting certiorari, but also that
the thoughtful and fact-specific analysis championed
by this Court in Filarsky and Richardson is understood and followed by the circuit courts.
In Tanner, the Tenth Circuit reversed a district
court’s grant of qualified immunity to full-time employees of Correct Care Solutions, LLC. See id. The
question presented was whether employees of a multistate corporation, organized to provide medical services
in correctional institutions, can assert qualified immunity. Id. at 864.
The court acknowledged, in accordance with
Richardson and Filarsky, the “availability of qualified
immunity to private parties performing governmental
functions depends on (1) ‘the common law as it existed
when Congress passed § 1983 in 1871,’ and (2) the
policy reasons the Supreme Court has ‘given for
recognizing immunity under § 1983.” Id. at 867 (citing
Filarsky, 566 U.S. at 384). The court specified that this
is “a disjunctive test: Private individuals are entitled
to assert qualified immunity if their claim is supported
by historical practice or based on public policy considerations.” Id. (interior citation omitted). In doing so,
the Tenth Circuit joined the Fifth, Sixth, Seventh,
Eighth, and Ninth circuit courts in denying qualified
immunity to “private medical professionals employed
full-time by a multi-state, for-profit corporation systemically organized to provide medical care in correctional
facilities” because “neither late 19th century common
law nor present-day policy considerations counsel in
favor of extending qualified immunity.” Id. at 865, 874.
Due to this fact-specific analysis, this holding was
limited to circumstances similar to those presented in
Tanner. See id. at 865.

18
Applying the same test in Jensen v. Clyde, the Tenth
Circuit granted qualified immunity to Dr. Tubbs, a
sole practitioner who was engaged part-time by the
Duchesne County Jail to provide medical services to
the inmates. The Tenth Circuit again looked “both to
history and to the special policy concerns involved in
suing government officials.” Jensen, 989 F.3d at 855.
Beginning with history, the Tenth Circuit considered
“the common law as it existed when Congress passed
§ 1983 in 1871. Id. (citing Filarsky, 566 U.S. at 384).
One of the common law principles existing in 1871 “is
that immunity should not vary depending on whether
the individual works for the government on a parttime or full-time basis.” Id. Petitioner does not dispute
that Nurse Clyde, who was directly employed by
Duchesne County, was entitled to assert a qualified
immunity defense. Since Dr. Tubbs would have been
able to raise such a defense if he too worked for
Duchesne County on a full-time basis, the Jensen
court found a historical basis for extending qualified
immunity to him. See id. at 855-56.
The Jensen court then turned to the policy considerations underlying the doctrine of qualified immunity.
See id. Taking each of those policy considerations in
turn, the Tenth Circuit found that the “unique facts of
this case” support the conclusion that Dr. Tubbs could
raise a qualified immunity defense. See id. at 856-57.
Petitioner cannot conflate the different conclusions
reached in these cases with an assumption that the
courts applied different standards. The recent Tenth
Circuit decisions demonstrate the efficacy and flexibility of the two-part analysis in resolving the applicability
of a qualified immunity defense to private persons.

19
3. The Eighth Circuit’s recent decision
on this issue demonstrates that
there is no confusion among the
circuit courts.
Since the Petition for Writ of Certiorari was filed,
the Eighth Circuit published a decision demonstrating
that there is no confusion among the circuit courts of
appeal as to the standard to apply to the question of
whether a private person is entitled to assert qualified
immunity. In Davis v. Buchanan County, Missouri,
the Eighth Circuit addressed whether employees of
Advanced Correctional Healthcare, an Illinois corporation whose employees provided on-site nursing coverage
to correctional facilities were entitled to qualified
immunity. 2021 WL 3729050 at *2, 4. The court
applied the factors outlined by this Court in
Richardson and Filarsky):
(1) the “general principles of tort immunities
and defenses applicable at common law,
and
(2) “the reasons we have afforded protection
from suit under § 1983.”
See Filarsky, 566 U.S. at 384 (internal quotations and
citation omitted).
When assessing the general principles of tort immunities and defenses applicable at common law, the
Court rejected the medical defendants’ reliance on
Filarsky, holding that as “employees of systematically
organized private firms, tasked with assuming a major
lengthy administrative task. They are factually dissimilar to the individuals entitled to assert qualified
immunity in Filarsky . . . but like those not entitled
to assert qualified immunity in Richardson.” Davis,
2021 WL 3729050, *7. In doing so, the Davis court cited

20
Sanchez v. Oliver, 995 F.3d 461 (5th Cir. 2021); Tanner
v. McMurray, 989 F.3d 860 (10th Cir. 2021); Est. of
Clark v. Walker, 865 F.3d 544 (7th Cir. 2017);
McCullum v. Tepe, 693 F.3d 696 (6th Cir. 2021);
Jensen v. Lane Cty., 222 F.3d 570 (9th Cir. 2000); and
Hinson v. Edmond, 192 F.3d 1342 (11th Cir. 1999),
which also did not recognize “a firmly rooted tradition
of immunity for similarly situated privately-employed
medical professionals.” Davis, 2021 WL 3729050 *5.
It is noteworthy, that unlike Petitioner, the Eighth
Circuit did not note any confusion, circuit splits, or
inconsistencies in the approach taken by the circuit
courts in applying and assessing the historical common
law prong.
Following its assessment of the common law, the
Eighth Circuit did not cease its analysis by finding
that the historical prong was dispositive. Instead, the
court moved on to assess the second factor—the weight
of the policy reasons for affording protection from suit
under section 1983. Id. at *7. After assessing each
policy consideration (unwanted timidity, attracting
talented candidates to public service, and preventing
harmful distractions caused by lawsuits), the court
held that “the purposes of qualified immunity, on
balance, do not favor extending immunity” to employees
of large firms systemically organized to perform a
major administrative task for profit.
The Eighth Circuit’s recent decision in Davis demonstrates that the circuit courts of appeal are not at odds,
but are consistently applying the factors outlined in
Richardson and Filarsky. And that the alleged circuit
split, which Petitioner has championed in the Petition
for Writ of Certiorari, is not the result of diverging
standards, but the result of the courts appropriately
undertaking the same fact-specific, two-part analysis

21
to determine whether a private person providing
health care in a correctional facility is entitled to
qualified immunity. Respondent, therefore respectfully
requests that this Court deny Petitioner’s Petition for
Writ of Certiorari.
II. The question presented does not merit the
Court’s attention.
The question presented by Petitioner does not merit
the Court’s attention because the circuit courts are
uniformly applying the same fact-specific, two-part
analysis to determine whether a private person providing health care in a correctional facility is entitled to
assert qualified immunity. The purposes underlying
qualified immunity are best served by the current
fact-specific, two-part analysis used by the courts.
Petitioner’s claim that certiorari would be helpful to
illuminate this standard for private actors seeking
immunity in other contexts is similarly unfounded;
courts apply the Richardson and Filarsky standard
consistently, albeit reaching different conclusions
depending on the facts of the case.
Petitioner points to the trend of privatization of
health care services in correctional facilities to support
its request that the Court grant certiorari. Petitioner
argues that the alleged confusion surrounding whether
a private health care provider can assert a qualified
immunity defense will hinder private medical personnel in reaching mutually agreeable terms for the
provision of healthcare to detainees. This concern is
unfounded. As demonstrated in Section I, above, there
is no split among the circuit courts of appeal on this
issue, and each circuit applies the same fact-specific,
two-part analysis. Furthermore, the circuit courts
have unanimously held that employees of large firms
that are systematically organized to perform a major

22
administrative task for profit cannot assert a qualified
immunity defense. See, e.g., Davis, 2021 WL 3729050;
Estate of Clark, 865 F.3d 544; McCullum, 693 F.3d
696; Hinson, 192 F.3d 1342; Jensen, 222 F.3d 570.
Therefore, the question of whether, and under what
circumstances, a private healthcare provider can
assert a qualified immunity defense is clearer than
Petitioner suggests.
Petitioner’s request for certiorari—and its implicit
request that qualified immunity be categorically
denied to all private health care providers—would
undermine the purposes of qualified immunity and
hinder small rural counties, like Duchesne County,
from obtaining health care services for its inmates.
Small jails, primarily located in rural areas, often
report a lack of funding and personnel that limits their
ability to offer critical services, including health care.
See Jails: Inadvertent Health Care Providers, The
PEW Charitable Trusts (Jan. 2018), https://www.pew
trusts.org/-/media/assets/2018/01/sfh_jails_inadvertent_
health_care_providers.pdf. Rural jails tend to hold
fewer people than urban ones, and therefore lack the
resources that are available in large urban jails
because they cannot benefit from economies of scale.
See Aaron Littman, et. al, Protecting Rural Jails from
Coronavirus, The Justice Collaborative Institute (Apr.
2020), https://www.filesforprogress.org/memos/rural-jailscoronavirus.pdf. Larger, urban jails are more likely to
have (and afford) full-time medical care providers with
advanced credentials; smaller, rural jails are more
likely to have only part-time nursing staff, supervised
remotely. See id. Administrators of jails in rural or
poor counties often complain that they have neither
the resources nor the expertise to hire, train, and
supervise doctors and nurses in the particular

23
demands that their facilities require. See Steve Coll,
The Jail Health-Care Crisis, The New Yorker (Feb. 25,
2019), https://www.newyorker.com/magazine/2019/03/
04/the-jail-health-care-crisis.
The public policies supporting the qualified immunity doctrine are aimed at protecting the government’s
ability to carry out its activities. See Richardson, 521
U.S. at 408-412. The fact-specific, two-part analysis
currently employed by lower courts furthers the government’s interest in providing healthcare to inmates
in rural or poor counties. These counties—much like
Duchesne County—may be unable to afford or may
lack access to a full-time medical provider or a large,
for-profit healthcare company. In Utah, doctors cannot
be insured against punitive damages and medical
malpractice coverage does not generally cover intentional torts. Therefore private doctors providing
healthcare services on behalf of the government cannot
rely on private malpractice insurance to ensure them
against § 1983 claims, but must self-insure against
prisoners’ lawsuits if qualified immunity is not available. Furthermore, private doctors providing healthcare
services in correctional institutions cannot select their
patients; have a much more vulnerable patient population than the general populous; do not have ready
access to specialists for consultation; and must provide
healthcare under the parameters necessary to secure
the safety and security of the health care providers ,
jail staff, and inmates. For these reasons among others,
contrary to Petitioner’s assertion, § 1983 lawsuits
are not comparable to malpractice suits. If qualified
immunity is categorically denied to all private medical
providers, counties like Duchesne County will have a
significant barrier to obtaining quality healthcare for
its inmates.

24
Petitioner also asks this Court to grant certiorari to
address the “very same rift” in cases addressing the
availability of immunity for private actors in other
contexts. Once again, the cases cited by Petitioner all
apply the same two-part analysis from Richardson
and Filarsky, but reach different conclusions as to
whether a private actor can assert immunity depending on the specific factual scenario. In Bracken v.
Okura, the Ninth Circuit “followed the Supreme
Court’s instruction to ‘look both to history and to the
purposes that underlie government employee immunity in order to find the answer.’” 869 F.3d 771, 777 (9th
Cir. 2017) (citing Richardson, 521 U.S. at 404; Jensen,
222 F.3d at 576). Applying that framework, Bracken
found that immunity was not historically available for
off-duty officers acting as private security guards. Id.
Bracken then found that the policies underpinning
qualified immunity did not “warrant invoking the
doctrine here.” Id. at 778. The Fourth Circuit applied
the same test in Gregg v. Ham, stating that if history
does not reveal a firmly rooted tradition of immunity
and the policy considerations underlying qualified
immunity do not apply to that category of private
persons, then it would not allow the private defendant
to assert qualified immunity. 678 F.3d 333, 340 (4th
Cir. 2012).
In Lockett, the Tenth Circuit looked to both history
and to the purposes that underlie government employee
immunity to determine whether qualified immunity
applied to a private physician carrying out an execution at a prison. The Est. of Lockett by & through
Lockett v. Fallin, 841 F.3d 1098, 1108 (10th Cir. 2016).
The Tenth Circuit adopted Richardson’s finding that
there was no conclusive evidence of a historical
tradition of immunity for private parties carrying out
prison-management activities. See id. However, the

25
Lockett court found that the private executioner was
ultimately entitled to assert qualified immunity because
the purposes of qualified immunity, as set forth in
Richardson and Filarsky, supported its application given
the unique facts of the case. See id. at 1108-09. Significantly, the Supreme Court denied certiorari. Lockett v.
Fallin, 137 S. Ct. 2298, 198 L. Ed. 2d 751 (2017).
Therefore, the question presented by Petitioner does
not merit this Court’s attention.
III. The Tenth Circuit correctly decided
Jensen v. Clyde based on its specific facts
and relevant policy considerations.
The Court should not grant certiorari based on
Petitioner’s allegations that the Tenth Circuit’s decision was simply wrong. “A petition for a writ of
certiorari is rarely granted when the asserted error
consists of erroneous factual findings or the misapplication of a properly stated rule of law.” U.S. Sup. Ct.
R. 10.
As demonstrated above, this Court has clearly
established precedents for determining when a private
actor may invoke qualified immunity, which every
circuit has followed. In Estate of Jensen by Jensen v.
Clyde, the Tenth Circuit followed the historical analysis set forth in Filarsky, looking to the common law
principles in existence in 1871. 989 F.3d at 855–56.
Petitioner wrongly claims that there was nothing
“historical” about the Jensen court’s reliance on Filarsky.
Petitioner misstates that this Court has “consistently
embraced history as dispositive.” Pet. at 31. As
demonstrated above, the Fourth, Fifth, Sixth, Seventh,
Eighth, Ninth, Tenth, and Eleventh Circuits have
each looked to both history and public policy in determining whether qualified immunity is warranted. See

26
Section I, supra. And in Lockett, the Tenth Circuit
found little historical support for qualified immunity,
but found the public policy analysis sufficient to extend
the qualified immunity defense to a private actor.
The Estate of Lockett by and through Lockett v. Fallin,
841 F.3d 1098, 1108–09 (10th Cir. 2016). This Court
declined to grant certiorari for that decision. Lockett v.
Fallin, 137 S.Ct. 2298.
Finally, public policy strongly weighs in favor of
allowing Dr. Tubbs to assert a qualified immunity
defense. Petitioner cites no support for its claim that
avoiding unwarranted timidity “is not a serious
concern for medical professionals.” Pet. at 33.
Petitioner also cites no support for its claim that
Section 1983 exposes medical professionals to less
liability than ordinary malpractice suits. Petitioner
points out in its Petition that detainee deaths are on
the rise, and prisoner deaths due to drug or alcohol
intoxication have more than quadrupled in the past
twenty years. Pet. at 21. Petitioner also points out that
the nation’s prison population is aging. Pet. at 20.
Physicians who provide healthcare at a jail or prison
are exposed to significant liability from a healthcompromised population. Since Utah prohibits insurance coverage for punitive damages and malpractice
insurance covering intentional acts is not easily
available, these physicians will be unable to obtain
malpractice insurance that can cover the allegations
and potential damages involved in Section 1983
lawsuits. What talented candidate would not be
deterred or distracted by the prospect of self-insuring
themselves against an inevitable Section 1983 action
from an inmate or inmate’s family? This is particularly
true when a rural county jail with a limited budget is

27
contracting with an individual doctor, not a large, forprofit prison or company, to obtain health care.
Boiled down, Petitioner’s complaint seems to be less
that the Tenth Circuit misapplied the correct standard, but rather a fundamental antipathy towards the
very existence of the qualified immunity doctrine,
including its extension to any private actor. See Pet. at
28 & n. 5. The Court should decline to grant certiorari
to entertain Petitioner’s quarrels with the general
doctrine of qualified immunity.
CONCLUSION
The petition should be denied.
Respectfully submitted,
CORTNEY KOCHEVAR
Counsel of Record
KRISTINA H. RUEDAS
NELSON NAEGLE
222 South Main Street
Suite 1740
Salt Lake City, UT 84101
(385) 292-4400
ckochevar@nelsonnaegle.com
kruedas@nelsonnaegle.com
Counsel for Respondent
September 3, 2021

